No.

IN THE

SUPREME COURT OF THE UNITED STATES
Makeda Haile,
Petitioner
v.
Kaiser Permanente Tysons Corner,
Respondent
PROOF OF SERVICE
I, Makeda Haile, do swear or declare that on this date,
(^ , 2020, as required
by Supreme Court Rule 29 I have served the enclosed MOTION FOR LE^VETO PROCEED IN
FORMA PAUPERIS AND PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid delivery within 3 calendar days.
The name and address of the served is as follows:
Robert Brown (Medical Center Adm. Manager)
Or Letisha Brown (Administrative Assistant)
Kaiser Permanente Tysons Corner
8008 Westpark Dr, McLean, VA 22102

Attorney General of United States,
Department of Justice,
950, Pennsylvania Ave, N.W.,
Washington, DC 20530-0001.

Solicitor General of the United States, Room 5614
Department of Justice, 950 Pennsylvania Ave.,
N.W., Washington, D.C. 20530-0001.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

3

0

, 2020

36

